                                  U.S. Department of the Interior
                                      Office of Inspector General

                             FLASH REPORT

                           PUBLIC SAFETY ISSUES AT
                         THE SAGINAW HILL PROPERTY
                        BUREAU OF LAND MANAGEMENT




                            Residential Area



                                                 Contaminated
                        Saginaw Hill                 Sites
                         Property

             New
          Residential
             Area

                                                                Harriet
                                                               Johnson
                                                              Elementary
                                                                School




                        Rock Collector at Saginaw Hill Property




                         Pascua Yaqui
                            Casino




C-IN-BLM-0013-2005                                                 MARCH 2005
                United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                Washington D.C. 20240

                                                                        March 15, 2005

Memorandum

To:        Director, Bureau of Land Management
           Field Manager, Tucson Field Office

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Public Safety Issues at the Saginaw Hill Property, Bureau of Land Management
           (Report No. C-IN-BLM-0013-2005).

      This report presents information regarding the Bureau of Land Management’s (BLM)
Saginaw Hill Property that requires immediate remedial action - hazardous substances from
contaminated mine waste and physicals hazards such as open mine shafts.




                   A contaminated area




           This picture shows one of the contaminated areas on the Saginaw Hill
              Property and its proximity to the surrounding populated areas.

          In February 2005, Office of Inspector General auditors visited the Saginaw Hill
  Property as part of an audit of the Department of the Interior’s management of hazardous
waste sites. The objective of the audit is to evaluate the Department’s processes and
procedures to identify, track, and prioritize sites containing hazardous substances. During the
audit we identified the conditions noted in this report.

                                        BACKGROUND
        The Saginaw Hill Property is a 540-acre parcel of land located in Pima County just
outside the city of Tucson, Arizona. From the late 1800s through the mid 1900s mining
occurred on the site. The mining left behind two contaminated areas and numerous physical
hazards that pose a significant threat to human health, safety, and the environment. Public
access to the site is unrestricted, and frequent public uses include recreational activities such
as hiking, camping, off-road vehicle use, and rock collecting, as shown in the following
photographs.




                   All-terrain vehicle users frequent the Saginaw Hill area.




                                                2
 Close-up of visitor collecting rocks at the site.




Visitors collecting and removing rocks at the site




                        3
       There is an elementary school 1/3 of a mile from the site and there is a path that leads
from the elementary school to the contaminated areas.




                                                                                    Harriet Johnson
                                                                                    Elementary




 This photo, which was taken from Saginaw Hill, shows well-worn trails that lead from the school to
                                     the contaminated areas.


        In addition, new homes are being built within 1 mile of the property, existing homes
are as close as 800 feet, and there is a Pascua Yaqui casino and amphitheater approximately ½
mile away.




                                               4
View of the new residential housing development from the Saginaw Hill Property.




       This house is approximately 800 feet from the contaminated area.




                                     5
                View of the Pascua Yaqui Casino from the Saginaw Hill Property.

                                      OBSERVATIONS
       During our site visit, we discovered that the general public had unrestricted access to
numerous hazards at the Saginaw Hill Property, including contaminated mine waste and open
mine shafts. BLM erected a barbed wire fence around two small areas of contamination in
December 2003. Our inspection disclosed that the fencing had been vandalized or
compromised, allowing unrestricted access. There were no signs anywhere on the property
prohibiting entry or warning the public of the contamination and safety hazards at the site.




                                            6
        Close-up showing where a section of the fence has been cut.




The compromised fence allows easy access to one of the contaminated areas.




                                    7
                           Another view of the compromised fence.

Hazardous Substances

        Since 1988, four environmental assessments have been performed at the Saginaw Hill
Property. Pima County performed two of these assessments to evaluate the suitability of the
land for use as a park. All of the assessments identified toxic levels of lead. Assessments in
1989, 2003, and 2004 also identified dangerous levels of arsenic. At least one of the
assessments concluded that both contaminants were present in amounts that exceeded safe
levels established by the Arizona Department of Environmental Quality and BLM by up to 20
times. That notwithstanding, BLM published its determination that the property was suitable
for a lease to Pima County as a park in the Federal Register in September 2002.

        Pima County’s 1988 and 1989 assessments reported that groundwater contamination
was possible and recommended that a comprehensive assessment be conducted. BLM did not
conduct a comprehensive assessment and took no action to remove the contaminants from the
site until 2003, thus prolonging the environmental exposure and widening the risks to the
public. In 2003, BLM performed a preliminary assessment and confirmed the presence of
toxic levels of arsenic and lead.

        In 2004, BLM had a contractor perform well water tests on two wells near the site, and
the results indicated unsafe levels of arsenic and lead in one well. BLM has some concerns




                                              8
about the accuracy of the test results because of the methodology used to test this well. OIG
personnel obtained and reviewed the test results and discussed with the Department’s Office
of Environmental Policy and Compliance and BLM the need to report the results to the
National Response Center (NRC) and the landowner. As a result, BLM advised the
landowner to refrain from drinking the water because levels of arsenic and lead exceeded both
U.S. Environmental Protection Agency (EPA) and Arizona Department of Environmental
Quality drinking water standards. BLM did not advise the homeowner not to use the water
for other purposes such as showering, cooking, and washing clothes. BLM plans to conduct
further testing on this well.

Non Reporting on Hazardous Substances

      As of February 2005, BLM had not reported the presence of hazardous waste to the
NRC or made diligent efforts to notify the public.

        Under section 103 of the Comprehensive Environmental Response, Compensation and
Liability Act (CERCLA), any person in charge of a facility must notify the NRC as soon as
that person has knowledge of a release of a hazardous substance in excess of a reportable
quantity. BLM should have known that a reportable release probably occurred when it
received the results of Pima County’s assessments disclosing that levels of lead and arsenic
exceed the relevant risk management criteria. At that time, BLM should have reported the
release to the NRC.

        On May 6, 2003, BLM forwarded the results of its preliminary assessment
categorizing this location as “high-risk” to the Department of the Interior Office of
Environmental Policy and Compliance. The assessment noted that, “levels of toxic metals
exceed the BLM Risk Management Criteria by up to 20 times for arsenic and 17 times for
lead.” BLM also cautioned that visitors to Saginaw Hill are at risk of exposure to lead and
arsenic by coming into direct contact with soil or from airborne particulates windblown into
nearby yards. Although BLM concluded that Saginaw Hill contains a release of hazardous
substances from mine waste, BLM still did not notify the NRC.

         BLM has not been proactive in notifying the public and the community about the
dangers at this site. Officials of the Tucson Unified School District informed us that BLM did
not tell them about the contamination in the area adjacent to the Harriet Johnson Elementary
School. There are no signs warning of hazardous substances posted on the property. BLM
officials told us that they had posted signs, but during our visit in February 2005, we did not
see signs on the property.

        In November 2004, BLM sent a letter to 40 residents and officials in the community to
inform them that BLM was planning to conduct site investigations at the Saginaw Hill
Property. The letter did not specifically disclose the presence of contaminants such as arsenic
or lead.

       BLM has prepared a Community Involvement Plan to inform the local community of
the progress of investigations at the site and to give the community the opportunity to provide




                                             9
input into the selection of removal action alternatives for the site. As of February 2005, this
document had not been released to the public.




             These individuals were collecting rocks within the contaminated area.




              This individual was inside the contaminated area collecting rocks.




                                                10
Physical Hazards

        Pima County’s 1988 assessment identified more than 65 safety hazards including
many open mine shafts. The report recommended that all the open mining hazards be
physically identified and covered with suitable materials. This site is frequently used for
recreation by the public, and open mine shafts pose a significant risk to public safety. During
our visit we located 18 dangerous mine shafts and determined that BLM had not mitigated
many of the previously identified safety hazards.




                   This open shaft was typical in that it was not fenced or
                   marked. We estimated that it is approximately 100 feet
                                           deep.




                                                            Shaft Opening


                  This person is next to the open shaft pictured above. The
                             road is visible in the background.




                                               11
This open shaft was typical in that it was not fenced or marked. We estimated
                    that it is approximately 60 feet deep.




                                                            Shaft Opening




 This person is walking on a trail approximately 10 feet away from the open
                            shaft pictured above.




                                      12
       Although there has been no active mining on Saginaw Hill since the middle of the
1900s, there are still active mining claims on the Saginaw Hill Property. BLM is required to
work through the claimants to address physical safety issues. BLM must notify the mine
claimants of the safety hazards, ask them to remedy the hazards, and if no action is taken,
BLM can then mitigate the dangers posed by the mine shafts.

       BLM officials told us that they have filled in five mine shafts since 1997. In 1997 and
1999, BLM notified a mine claimant of the need to take action and close as many as nine open
mine shafts or BLM would close the shafts. The claimant never responded to BLM, and we
could not determine if any of these nine shafts had been closed. As stated above, in February
2005, we observed 18 mine shafts that represented safety hazards.

       BLM could also work with the Arizona State Mine Inspector to coordinate with active
mine claimants to address physical hazards. BLM officials told us that they met with the
Arizona State Mine Inspector in 1999 but have not followed up with that office.

                                       CONCLUSION
       There is no way for BLM or the Department to determine how many people have been
exposed to the hazardous substances at this site or what levels of exposure may have been
experienced. The conditions at the site continue to expose the public to physical and
environmental hazards. We believe it is imperative that BLM take immediate action to
eliminate the contamination and mitigate the physical hazards to protect the public and the
environment.

                                   RECOMMENDATIONS

       We recommend that the Director, Bureau of Land Management, immediately:

       1. Notify the NRC of the contamination at the Saginaw Hill Property.

       2. Notify the public of the conditions at the site.

       3. Take steps to prevent public access to contaminated areas on the Saginaw Hill
          Property.

       4. Conduct an inspection of the Saginaw Hill Property to identify all physical hazards
          presenting a safety risk to the public and take action to mitigate the hazards.


        BLM should assess its lands to identify hazardous sites in close proximity to
populated areas similar to Saginaw Hill. BLM should inspect these sites and take appropriate
action to mitigate any safety hazards.

       We discussed the conditions at Saginaw Hill with BLM officials on February 8, 2005,
and provided additional information during an exit conference on February 17, 2005. BLM




                                             13
officials told us that they planned to physically inspect the Saginaw Hill site during the week
of February 21, 2005, and would determine the proper course of action based on that
inspection.

      We did not conduct a detailed review of the conditions at the Saginaw Hill Property. As
a result, this review was not conducted in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States.

     Please provide us with your written comments to this report and a summary of actions
taken or planned by April 1, 2005. Please address your response to:

                       Mr. Roger La Rouche
                       Assistant Inspector General for Audits
                       U.S. Department of the Interior
                       Office of Inspector General
                       1849 C Street, NW, MS 5341
                       Washington, D.C. 20240

     If you have any comments or questions regarding this report, please contact Ms. Anne
Richards, Central Region Audit Manager, at (303) 236-9243.




                                             14
